April 2, 2020
Writer’s Direct Contact
(202) 220-1114
(213) 683-4012 FAX
Elaine.Goldenberg@mto.com

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Pike v. Gross, No. 19-1054

Dear Mr. Harris:
Pursuant to the Court’s order dated March 19, 2020 modifying the Court’s rules
and practices in light of the COVID-19 pandemic, the undersigned counsel respectfully moves to
delay distribution of Ms. Christa Pike’s petition for certiorari for 35 days, to May 19, 2020.
Ms. Pike intends to submit a reply brief in support of her petition for certiorari,
which is currently scheduled to be distributed on April 15, 2020. But the COVID-19 pandemic
has made communication with Ms. Pike more difficult. To lessen the risk of a COVID-19
outbreak in its facilities, the Tennessee Bureau of Prisons is strongly discouraging attorneys from
making in-person visits. While the Bureau is providing video conferencing as an alternative,
such arrangements require significant preplanning, and we must rely on the Tennessee Prison for
Women’s mail system to deliver to Ms. Pike a copy of the Warden’s brief in opposition. A 35day extension will provide sufficient time to arrange satisfactory means of communication with
Ms. Pike.
Respondent’s counsel has informed me that he does not oppose this motion.

The Honorable Scott S. Harris
April 2, 2020
Page 2

Respectfully submitted,

�J,�
L
Elaine J. Goldenberg

